Legal Printers,

LLC
5614 Connecticut Avenue, NW #307
Washington, DC 20015

202-747-2400
202-449-9565 Fax
LegalPrinter s .com

April 15, 2021
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
Re:

Jon Bryan v. Allied Pilots Association and American Airlines, Inc:

Dear Sir or Madam:
As required by Supreme Court Rule 33.1(h), I certify that the Petition for a Writ
of Certiorari referenced above contains 7,89S words, excluding the parts of the
document that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Sincerely,

Jack Suker;' Esq.
Principal

(Of

LISA KAY NICHOLSON
,
Notary Public
I State of Maryland
' Montgomery County
My commissitm exp. October 12,2022

Sworn and subscribed before me this 15th day of April 2021.

